                                                                           Legal Services Corporation
                                                                           Office of Inspector General




June 13,2005


Helaine M. Barnett
President
Legal Services Corporation


      Audit of LSC's Two Million Dollars ($2,000,000) Landlord Contribution
      Report No. AU05-06(R)


Introduction
This report revises the original report "Audit of LSC's Two Million Dollars ($2,000,000)
Landlord Contribution Report No. AU05-06," dated April 21, 2005. The purpose of the
revision is to clarify the paraphrasing of management's comments to
recommendation 3.      Management was concerned that the paraphrase may be
misinterpreted and wanted to ensure that it was understood that management has not
reached any conclusion as to whether collections need to be made from the landlord.
While the paraphrase did state that management indicated it will wait until its analysis of
the accounting is complete before deciding on how to proceed and the full text of
management comments were included as an attachment, the report has been revised to
ensure there is no possibility for misinterpreting management's position.



As a result of our review of LSC's lease at 3333 K Street, the Office of lnspector
General conducted a limited scope review of the accounting of Friends of Legal
Services Corporation's (FoLSC) $2 million Landlord Contribution.

On July 1, 2002, LSC signed a lease agreement with FoLSC to rent 45,000 square feet
of space at 3333 K Street, NW. Article 3 of the Office Lease Agreement and Exhibit D
of the Lease detail the Landlord and Tenant responsibilities. Exhibit D, Article 4,
Section 1.1 states that the "Landlord shall [provide] an allowance ("Landlord's
Contribution") of up to Two Million Dollars ($2,000,000), which shall be applied by
Landlord toward the cost and expense of performing Leasehold Improvements. ... Upon
completion of the Leasehold Improvements, any unused portion of the Landlord's
Contribution shall be retained by Landlord."


                                                                           3333 K Street, NW, 3rd Floor
                                                                           Washington, DC 20007-3522
                                                                           Ph: 202.295.1 500 Fax: 202.337.661 6
                                                                           www.o~g.lsc.gov
According to Exhibit D-I of the lease agreement, the $2 million was to be used for the
construction o f Leasehold lmprovements to bring the premises "to a standard
comparable to the existing premises occupied by Tenant located at 750 First Street,
N.E., Washington, D.C." The Leasehold lmprovements were to be made in accordance
with plans approved by LSC, including Architectural Plans prepared by the Landlord's
Architect; mechanical, electrical, rand plumbing (MEP) andlor fire protection and life
safety plans prepared by the Landlord's MEP Engineers; and Structural Plans prepared
by the Landlord's Structural Engineers (Exhibit D, Articles 1 and 2). The Leasehold
lmprovements were to be supervised by the Landlord's General Contractor (Exhibit D,
Article 1, section 1.8).


Objectives, Scope and Methodoloay

The objective of our audit was to determine whether LSC received full and fair value of
the $2 million build out funds that were available. To accomplish our objective we
reviewed the terms of the Office Lease Agreement between FoLSC and LSC, reviewed
documentation provided by both LSC and FoLSC, and interviewed key LSC employees.
The audit was performed in accordance with Generally Accepted Government Auditing
Standards from November 2004 to February 2005, and included such tests of internal
controls as considered necessary under the circumstances.


Prior Audit Coveraae

We found no prior audit coverage relevant to our review.


Audit Results

We were unable to determine whether LSC received full and fair value of the $2 million
build out funds that were available because LSC did not have the accounting records
and documentation to support the leasehold improvements. Although LSC made an
attempt to obtain documents from the landlord to support the leasehold improvements in
October of 2004, no information has been received by LSC from the landlord to fully
account for the cost of leasehold improvements.

In addition to the $2 million available for leasehold improvements, the Office of
Inspector General contributed $168,257 to build out its own space while LSC paid a
total of $34,983 to CTI Telecom for network and telephone wirings. As a result, LSC
may have paid over $200,000 for what should have been paid for with the leasehold
improvement funds.

Also, a review of the March 25, 2003 Preliminary Project Budget Summary Report
prepared by CB Richard Ellis, the landlord's representative, indicates that some of the
items listed may not be leasehold improvements, such as the lease termination fee of
$149,680 that FoLSC had agreed to pay to LSC's former landlord, and $250,000 in
unspecified base building renovations. As a result, LSC may not have received the full
benefit of the $2 million leasehold improvement allowance. Since any unused portion of
the leasehold improvement allowance reverted back to FoLSC, LSC derived no benefit,
such as reduced rent, by keeping leasehold improvements below $2 million. Because
LSC did not have a full accounting of the charges against the $2 million leasehold
improvement allowance, we were unable to determine if the lease termination fee and
the base building renovations were ultimately charged against LSC's leasehold
improvement allowance.

This occurred because LSC did not have a representative monitoring the construction
process solely for its own benefit. Because of the tenant's relationship to the landlord,
LSC management did not install sufficient controls during the construction process. Our
review indicated that no one in LSC was designated, solely for the benefit of LSC, to
closely monitor the reasonableness of expenditures related to the build out or leasehold
improvements.


Recommendations

The President of LSC should:

1. Obtain a full and detailed accounting from FoLSC of all costs associated with the
   $2 million landlord contribution

2. Conduct a detailed analysis of the costs to determine the reasonableness of these
   expenditures

3. Recoup from the landlord all payments made by LSC that should have been paid
   using the leasehold improvement funds.


LSC Manaqement's Comments

On April 12, the LSC President provided a written response to the draft report stating
that LSC management agreed with the findings and describing the actions LSC
management would take to implement the recommendations.

Recommendation 1. LSC management stated that, while management was unable to
locate any copy of the detailed accounting of all costs associated with the leasehold
improvements in their records, LSC management had communicated with the Landlord,
Friends of LSC, who has indicated a willingness to look for and provide such record to
LSC management.

Recommendation 2. LSC management indicated that, once management had located
or are provided a copy of the full and detailed accounting of the leasehold
improvements, it will conduct a thorough analysis of the costs t o determine the
reasonableness of these expenses.

Recommendation 3. LSC management stated "With respect to Recommendation 3,
how we will proceed will depend on our ability to document the expenditures and our
analysis of t h e reasonableness of the expense."

The complete text of LSC management comments can be found at Attachment 1.


OIG Evaluation of LSC Management's Comments

LSC management's comments are responsive to our findings and recommendations.
The OIG considers the actions taken or planned sufficient to address the issues we
identified.

The OIG considers Recommendations 1, 2 and 3 significant, therefore, requiring OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG formally notifies LSC management that the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Christopher M.
Aballe at (202) 295-1658 or me at (202) 295-1663.



Ronald D. Merryman
Acting Assistant Inspector General for Audit


Attachment 1: Memo from Helaine M. Barnett to Ronald D. Merryman,
              dated 4112/05

cc:   Victor Fortuno
      Vice President for Legal Affairs1
      General Counsel/Corporate Secretary
                                                                                 ATTACHMENT 1
                                                                                  Legal Services Corporation
                                                                                  America's Partner For Fqual lustlc~




                                 MEMORANDUM


TO:           Ronald D. Merryman
              Acting Assistant Inspector General for Audit

FROM:         Helaine M. Barnett
              President

DATE:         April 12,2005

SUBJECT:      Audit of LSC's Two Million Dollars ($2,000,000) Landlord Contribution


       Based on our meeting on April 4, 2005, and as a follow-up to my memo of March 16,
2005, following is management's response to the OIG's three recommendations in the draft
Audit of LSC's $2 Million Landlord contribution, as of this date:

        With respect to Recommendation 1, we have looked for and been in touch with Friends
of Legal Services Corporation (FoLSC) about a full and detailed accounting of all costs
associated with the 3333 K Street LSC space build-out. While we have been unable to locate
any copy of such an accounting in our own records, FoLSC may have such a record and they
have indicated a willingness to look for and provide it to us. (See attached correspondence on
this point.)

        With respect to Recommendation 2, once we locate or are provided a copy of a full and
detailed accounting, we will conduct a thorough analysis of the costs to determine the
reasonableness of these expenses.

      With respect to Recommendation 3, how we will proceed will depend upon our ability to
document the expenditure and our analysis of the reasonableness of the expense.

       If you have any questions or require anything more, please let me know.



cc: Kirt West
    Victor Fortuno
